Nos. 19-267, 19-348

In the Supreme Court of the Gnited States

Our LADY OF GUADALUPE SCHOOL, PETITIONER
v.

AGNES MORRISSEY-BERRU, RESPONDENT

ST. JAMES SCHOOL, PETITIONER
v.

DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE ESTATE OF KRISTEN, RESPONDENT

ON WRITS OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT

CERTIFICATE OF SERVICE

I, Linda Coberly, a member of the Bar of this Court, hereby certify that on
February 10, 2020, three copies of the brief for Franciscan University of
Steubenville as amicus curiae in support of Petitioners in the above-captioned cases
were served, as required by Supreme Court Rule 29.3, on:

Eric Rassbach

The Becket Fund for Religious Liberty
1200 New Hampshire Avenue, NW
Suite 700

Washington, DC 20036
erassbach@becketlaw.org

 
Jennifer Anne Lipski

JML Law

5855 Topanga Canyon Boulevard, Suite 300
Woodland Hills, CA 91367
jennifer@jmllaw.com

I further certify that all parties required to be served have been served.

nda Coberly

 
